Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



MEDICARE COMPLIANCE REVIEW
  OF CHRISTUS ST. FRANCES
 CABRINI HOSPITAL FOR THE
  PERIOD JANUARY 1, 2010,
   THROUGH JUNE 30, 2012



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                      February 2014
                                                      A-06-13-00019
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                           INTRODUCTION

 Christus St. Frances Cabrini Hospital did not fully comply with Medicare requirements for
 billing inpatient short stays, resulting in overpayments of at least $814,568 over 2 ½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. For calendar year (CY) 2011,
Medicare paid hospitals $151 billion, which represents 45 percent of all fee-for-service
payments; therefore, the Office of Inspector General (OIG) must provide continual and adequate
oversight of Medicare payments to hospitals. Using computer matching, data mining, and data
analysis techniques, we identified hospital claims that are at risk for noncompliance with
Medicare billing requirements. For this review we focused on inpatient stays of 1 day or less
(short stays). Our previous work at other hospitals found that a significant proportion of
inpatient short stays would more appropriately be billed as outpatient or outpatient with
observation services, which generally result in lower reimbursement than inpatient stays.

OBJECTIVE

Our objective was to determine whether Christus St. Frances Cabrini Hospital (the Hospital)
complied with Medicare requirements for billing inpatient short stays.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for beneficiaries after they are discharged from hospitals. Medicare Part B provides
supplementary medical insurance for medical and other health services, including coverage of
hospital outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers
Medicare.

CMS contracts with Medicare Administrative Contractors (MACs) to, among other things,
process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)               1
Medicare Requirements for Hospital Claims and Payments

Medicare provides Part A coverage for medically ordered inpatient hospital services. Factors to
be considered when making the decision to admit include such things as: (1) the severity of
signs and symptoms exhibited by the patient, (2) the medical predictability of something adverse
happening to the patient, and (3) the need for diagnostic studies that appropriately are Part B
outpatient services to assist in assessing whether the patient should be admitted. 1

CHRISTUS ST. FRANCES CABRINI HOSPITAL

The Hospital is an accredited, comprehensive hospital providing inpatient and outpatient services
in Alexandria, Louisiana. According to CMS’s National Claims History data, Medicare paid the
Hospital approximately $5 million for 1,086 inpatient short-stay claims with dates of service
from January 1, 2010, through June 30, 2012 (audit period).

HOW WE CONDUCTED THIS REVIEW

Our review covered $1,247,510 in Medicare payments to the Hospital for 187 inpatient short-
stay claims with dates of service during the audit period that we identified as potentially at risk
for billing errors. We selected a stratified random sample of 100 claims for review. We
submitted all sampled claims to an independent medical review contractor to determine whether
the services were medically necessary. This report focuses on one selected risk area and does
not represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement. Appendix A contains the details of our audit scope and methodology, Appendix
B contains our sample design and methodology, and Appendix C contains our sample results and
estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                  FINDING

The Hospital complied with Medicare inpatient billing requirements for 38 of the 100 short-stay
claims we reviewed. However, the Hospital did not fully comply with Medicare inpatient billing
requirements for the remaining 62 claims because it incorrectly billed Medicare Part A for
inpatient beneficiary stays that should have been billed as outpatient or outpatient with
observation services.

The Social Security Act states that Medicare payments may not be made for items or services
that “are not reasonable and necessary for the diagnosis or treatment of illness or injury or to
improve the functioning of a malformed body member” (§ 1862(a)(1)(A)).


1
 The Medicare Benefit Policy Manual (Publication No. 100-02), chapter 1, § 10, “Inpatient Hospital Services
Covered Under Part A.”

Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)                           2
Our independent medical review contractor determined that inpatient admission was not
medically necessary for the beneficiaries. The services planned at the time of admission could
have been safely provided at the outpatient level. As a result of these errors, the Hospital
received overpayments of $517,682. 2

Based on our sample results, we estimated that the Hospital received at least $814,568 in
overpayments from Medicare. The Hospital did not provide a cause for the overpayments
because it did not agree that it had made these billing errors.

                                          RECOMMENDATIONS

We recommend that the Hospital:

    •    refund to the Medicare contractor $814,568 in estimated overpayments for the audit
         period and

    •    strengthen controls to ensure full compliance with Medicare requirements for billing
         short stays.

CHRISTUS ST. FRANCES CABRINI HOSPITAL COMMENTS

In written comments on our draft report, the Hospital disagreed with our first recommendation.
Specifically, the Hospital disagreed with our findings on 55 of the 62 inpatient short-stay claims
and stated: “Immediately upon learning of the medical contractor’s results, SFCH [the Hospital]
had the claims at issue re-reviewed . . . . Independent physician experts concluded that SFCH
had in fact properly billed 55 of the 62 claims that were deemed noncompliant by the OIG.” The
Hospital added that it intends to dispute the claims at issue through the MAC appeals process.

Additionally, the Hospital disagreed with the decision to extrapolate the results. It stated: “As
acknowledged in the draft report, some portion of the alleged overpayment may be properly
billable under Medicare Part B. As such, the amount of the actual overpayment based on the
sample claims reviewed is yet to be determined.” The Hospital requested that we not refer the
estimated overpayment to the MAC for collection. The Hospital stated that an MAC may only
base a notice of overpayment on extrapolated results when “there has been a prior determination
of sustained or high level of payment error or documentation that educational intervention has
failed to correct the payment error.”

Concerning our second recommendation, the Hospital discussed steps it had taken to ensure that
its inpatient short-stay billings are consistent with the existing regulations.

The Hospital’s comments are included in their entirety as Appendix D.



2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the MAC
prior to the issuance of our report.
Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)                               3
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether the claims
met medical necessity requirements. The contractor examined all of the medical records and
documentation originally submitted and carefully considered this information to determine
whether the Hospital billed the inpatient claims according to Medicare requirements. Based on
the contractor’s conclusions, we determined that 62 claims should have been billed as outpatient
or outpatient with observation services.

In response to the Hospital’s concerns regarding its ability to rebill for certain services that were
denied as part of this review, we acknowledge its comments; however, the rebilling issue is
beyond the scope of our audit. After the completion of our audit, CMS issued the final
regulations on payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)). The Hospital should
contact its MAC for rebilling instructions. We maintain that the statistical sampling and
estimation techniques planned and used for this review are statistically valid methodologies that
we use to identify overpayments. The statutory provision cited by the Hospital that prohibits the
use of extrapolation applies only to MACs; it does not apply to OIG. Therefore, we continue to
recommend that the Hospital refund to the Medicare program $814,568 in estimated
overpayments for the audit period.




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)                4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

AUDIT SCOPE

Our review covered $1,247,510 in Medicare payments to the Hospital for 187 inpatient short-
stay claims with dates of service from January 1, 2010, through June 30, 2012, that we identified
as potentially at risk for billing errors. We selected a stratified random sample of 100 claims for
review.

We evaluated compliance with inpatient short-stay billing requirements and submitted all
sampled claims to an independent medical review contractor to determine whether the services
were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to inpatient short
stays because our objective did not require an understanding of all internal controls over the
submission and processing of claims. We established reasonable assurance of the authenticity
and accuracy of the data obtained from the National Claims History file, but we did not assess
the completeness of the file.

This report focuses on one selected risk area and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our fieldwork included contacting the Hospital, located in Alexandria, Louisiana, from January
through June 2013.

AUDIT METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient short-stay claim data from CMS’s National Claims
        History file with dates of service during our audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims that
        were potentially at risk for noncompliance with selected Medicare billing requirements;

    •   selected a stratified random sample of 100 claims totaling $687,348 for detailed review
        (Appendix B);

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the medical record documentation provided by the Hospital to support the
        sampled claims;




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)                5
    •   used an independent medical review contractor to determine whether the 100 sampled
        claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to attempt to determine
        the underlying causes of noncompliance with Medicare requirements;

    •   used the results of the sample review to estimate the Medicare overpayments to the Hospital
        (Appendix C); and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)               6
                  APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

Population

The population consisted of selected inpatient short stays paid to the Hospital for claims with
dates of service during our audit period.

Sampling Frame

We extracted the Hospital’s inpatient short-stay claim data from CMS’s National Claims History
file. The database contained 1,086 claims with dates of service during our audit period. We
performed data analysis to identify claims we felt were most at risk for improper payment. As a
result, the sampling frame included 187 claims totaling $1,247,510.

Sample Unit

The sample unit was a claim.

Sample Design

We used a stratified random sample. We stratified the sample frame into three strata based on
the payment amounts.

Sample Size

We selected 100 claims for review as follows:

                                                               Claims in Sample       Claims in
    Strata              Payment Amount Range
                                                                    Frame              Sample
       1                 $0.00 through $2,165.99                       63                 33
       2                $2,166 through $5,503.99                       63                 33
       3                   $5,504.00 and over                          61                 34
                                 TOTAL                               187                 100

Source of Random Numbers

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

Method of Selecting Sample Units

We consecutively numbered the claims within each stratum. After generating the random
numbers for each stratum, we selected the corresponding frame items.




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)               7
Estimation Methodology

We used the OIG/OAS statistical software for stratified random samples to estimate the total
amount of Medicare overpayments paid to the Hospital during the audit period.




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)            8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES


                                             Sample Results



                                                                    Number of
                                                                    Incorrectly         Value of
             Frame       Value of       Sample      Value of       Billed Claims      Overpayments
Stratum       Size        Frame          Size        Sample          in Sample         in Sample
   1           63         $128,762         33        $66,916             15              $29,613
   2           63          228,470         33        118,807             24               88,062
   3           61          890,278         34        501,625             23              400,007
 Total        187       $1,247,510        100       $687,348             62             $517,682

                                     Estimated Overpayments
                      (Limits Calculated for a 90-Percent Confidence Interval)


                                  Point Estimate               $942,312
                                  Lower Limit                  $814,568
                                  Upper Limit                $1,070,057




Medicare Compliance Review of Christus St. Frances Cabrini Hospital (A-06-13-00019)                  9
     APPENDIX D: CHRISTUS ST. FRANCES CABRINI HOSPITAL COMMENTS 





            November 12,2013




           Patricia Wheeler 

           Regional Inspector General for Audit Services 

           Office of Audit Services, Region VI 

           1100 Commerce Street, Room 623 

           Dallas, Texas 75242 


           Re: 	     DRAFT - Medicare Compliance Review of CHRISTUS St. Frances Cabrini Hospita l 

                     for the Period January 1, 2010 through June 30, 2012. (Report Number: A-06-13­
                     00019) 


           Dear Ms. Wheeler:

           I write to respond to t he Office of Inspector General (OIG) draft repor1 titled: Medicare
           Compliance Review of CI-IRISTUS St. Frances Cabtini Hospital for the Period Janumy 1, 2010,
           through June 30, 2012. CHRISTUS St. Frances Cabrini Hospital (SFCH) appreciates the
           opportunity to comment on the OIG's draft report. We are committed to complying with all
           regulations and standards governing federal health care programs and welcome the opportunity
           to comment on the report and embrace opportunities to improve our programs in order to
           minimize the risk of non-compliant claims.

           Background:

           OIG conducted a national initiative focused on cetiain risk areas for hospitals across the
           country. SFCH was not selected for review based on any improper billing or compliance
           practices. The OIG's national initiative has resulted in the publication of Medicare Compliance
           reports for nearly        ·ro
                                hospitals across the country.

           With regard to SFCH, the O IG focused its reviews on the Medicare requirements for billing
           inpatient short-stays. The audit covered 187 inpatient short-stay claims (S1,247,510 in
           Medicare payments) which the OIG had identified as potentially at risk for billing errors. The OIG
                                                1
           drew a sample of those claims (100) and retained a medical review contractor to determine
           whether the services for those claims where medically necessary.




           ' The draft report does no! indicate how !he OIG identified cerlain claims to be •at risk for billing errors: The lack o f
           such information prevents SFCH from adequately analyzing t!1e sampli<19 methodology used in this case .



           LEGAL\17655221\1




                     !i W itudP.n lt,ogc I frvmn   1   1X l[~~:;a   

                     li!f ~6!l?a? 7000 





Medicare Compliance Review ofChristus St Frcmces Cabrini Hospital (A-Ofrl3-00019)                                                       10
             Patricia Wheeler
             <November 12, 2013>
             Page 2


             OIG Findings:

             The OIG draft report found t hat SFCH complied with Medicare inpatient billing requirements for
             38 of the 100 short-stay claims reviewed. It further concluded that SFCH did not fully comply
             with Medicare inpatient billing requirements for the remaining 62 claims because it incorrectly
             billed Medicare Part A for inpatient beneficiary stays that should have been billed as outpatient
             or outpatient with observation services.

             Based on these findings, the OIG concluded that SFCH received an overpayment of $517,682.
             However. the OIG specifically acknowledged thai the hospital may be able to bill Medicare Part
             B for all services that would have been reasonable and necessary had the beneficiary been
             treated as an outpatient. Thus, the actual amount of overpaymen t is yet to be determined.

            As will be discussed in t he section to follow, the uncertainty of the overpayment is relevant
            because the OIG findings include an extrapolated damages calculation of $814,568 .

            SFCH Response to OtG Findings:

            SFCH does not agree with all of OIG's findings. Immediately upon learning of the medical
            review contractor's results, SFCH had the claims at issue re-reviewed by an independent,
            nationally recognized consultant which is made up of physician reviewers who are expert in
            Medicare rules and regulations. These independent physician experts concluded that SFCH had
            in fact properly billed 55 of the 62 claims that were deemed noncompliant by the OIG.
            Consistent with those findings , SFCH maintains that on ly seven of the 100 claims reviewed
            were improperly billed.

            SFC!-1 will refund t l1e overpayment due on the Medicare Part A claims; and, to the extent
            possible, it will re-submit the seven claims for payment under Medicare Part B. With regard to
            the remaining 55 claims , SFCH requests that the OIG reconsider its findings for the reasons set
            forth below .

            According to the SFCH experts, he government's medical review contractor's process appears
            inconsisten t with Generalfy Accepted Government Auditing standards. Most notably, SFCH's
            consu ltant identified a pattern of inconsistency in the application of the Medicare billing
            standards. Specifically, the Hospital's expert reviewers identified clai ms with similar patient
            histories which had inconsistent findings--i.e., some claims were found to be properly payable
            while others were not. Further, there may have been instances where the government's
            reviewers substituted their judgment for the real time judgment of t he physician caring for the
            patient, even though the medical documentation did not support it. Finally, there appear to be
            instances where the government's reviewers stated that the record lacked proper orders when
            in fact the orders did exist .

            As noted in earlier correspondence with the audit team , SFCH welcomes tt1e opportunity to
            meet and discuss each of the issues listed above. To the extent that is not possible, and the
            OIG draft f indings become final, SFCH intends to dispute the claims through the Medicare
            Administrative Contractor (MAC} appeal process.

            Finally, SFCH req uests that the OtG reconsider its damages calculation based on
            extrapolation. As acknowledged in the draft report, some portion of the alleged overpayment
            may be properly billable under Medica re Part B. Further, as noted above, some of the denied



            LEGAL\1765522111




Medicare Compliance Review ofChristus St Frcmces Cabrini Hospital (A-Ofrl3-00019)                                11
                Patricia Wheeler
                <November 12, 2013>
                Page 3


                claims are, in fact, properly payable. As such, the amoun! of the actual overpayrnent based on
                the sample claims reviewed is yet to be determined. Extrapolating from a sample with such
                uncertainty is not appropriate.

                To the extent that the OIG determines to include the extrapolated damages amount in its final
                report, SFCH requests that the extrapolated damages calculations not be referred to the MAC
                for collection. A MAC may only base a notice of overpayment on extrapolated damages where
                there has been a prior determination of sustained or high level of payment error or
                                                                                                    2
                documentation that educational intervention has failed to correct the payment error. In this
                case, there has been no such finding.

                SFCH Controls to Ensure Medicare Compliance:

                SFCH is committed to taking the steps necessary to ensure that its inpatien t sho1i-stay billings
                are consistent with the existing regulations. To that end, SFCH has put in place the procedures
                discussed below.

            All patients are screened by Case Management or the House Supervisor for level of care
            appropriateness upon admission and prior to bed assignment After discharge, any Medicare
            short-stays are re-screened prior to billing by Case Managers to ensure that they meet either
            Milliman or lnterQual inpatient criteria. Additionally, a hospital billing check is in place to stop
            any Medicare short-stays from being billed without first having been subjected to a review for
            medical necessity. If upon screening, the case meets inpatient criteria, Case Management w ill
            approve it for billing..lf it does not. Case Management will consult the ordering/treating physician
            to get his or her perspective. If the physician feels strongly that the patient needed to be in·
            patient. Case Management will discuss the case with the hospital Medical Director or a
            physician advisor for further guidance. If all are in agreement with the attending physician, the
            hospital will approve the case for billing.

            The hospital has also contracted with a nationally known consultant to assist Case Management
            and our physicians with appropriate level of care determinations. The consultant is available to
            SFCH at any point in the process (pre, during and post hospitalization} and provides physician­
            level medical necessity guidance.

            Thank you for allowing us to respond to the draft report . SFCH recognizes its obligations to
            ensure that proper billing safeguards are in place and appreciates the opportunity to learn from
            the issues highlighted by this review.

                                                                   Since; ely,            ~·~:~       __ ./

                                                                    . . ... !. . <·~:,:,< . ;/ .. ...~....f/-' t .· \ .., ... ~---.
                                                                     . "[{..\.J'.... .~..·! (             I                           ·········   ..,:".....
                                                                        !                   . '-        I
                                                                   Jol)n Finley, Esq., MPfl
                                                                   VP, Corporate Compliance and Privacy
                                                                   CHRISTUS Health


            - - - - - - - --
            2
                See 42 USC § 1395ddd(t)(3); Program Integrity Manual Chapter 8 §8.4.1.2·The Pwpose of Stali$tic<JI Sampling.




            LEGAL\1765522111




Medicare Compliance Review ofChristus St Frcmces Cabrini Hospital (A-Ofrl3-00019)                                                                              12
